OIG Investigative Reports, Saugus Couple Indicted for Identity Theft
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
PRESS RELEASE
June 15, 2004
United States Department of Justice
Michael J. Sullivan
U.S. Attorney
District of Massachusetts
United States Attorney's Office
John Joseph Moakley U.S. Courthouse
1 Courthouse Way, Suite 9200
Boston, MA 02210
Press Office: (617) 748-3139
SAUGUS COUPLE INDICTED FOR IDENTITY THEFT
Boston, MA... A Saugus husband and wife were arrested yesterday
and charged in federal court with identity theft, bank fraud, credit card
fraud and various other federal offenses.
United States Attorney Michael J. Sullivan; Kenneth R. Jones,
Inspector in Charge of the U.S. Postal Inspection Service in New England;
Gary Mathison, Special Agent in Charge of the U.S. Department of Education's
Office of Inspector General in New England, Robin M. Avers; Special Agent
in Charge of Immigration and Customs and Enforcement in New England; Leo Sullivan,
Special Agent in Charge of the U.S. Social Security Administration's Office
of Inspector General in New England; James MacKay, Chief of the Saugus Police
Department; Kathleen O'Toole, Commissioner of the Boston Police Department;
and Leo A. Sacco, Chief of the Medford Police Department, announced today
that ITZA RUIZ, a/k/a Itza Galvin Santos, age 39, and HERIBERTO RUIZ, age
47, of 226 Essex Street, Saugus, Massachusetts, were arrested on an indictment
unsealed in federal court yesterday, charging them with identity theft, bank
fraud, credit card fraud and making false statements in documents required
by federal immigration law. The twenty-three count indictment also charges
ITZA RUIZ with student financial aid fraud, making false statements in loan
applications, making false statements and entries in an INS Employment Eligibility
Verification Form I-9, and misrepresentation of a social security account
number. The indictment also seeks forfeiture of the couple's marital home.
The indictment alleges that over a three year period, ITZA
RUIZ stole the name and personal identifiers of a woman using that identity
to purchase a $318,250 mortgage for her Saugus home. It is also alleged that
ITZA RUIZ used the stolen identity to obtain student financial aid PELL grants
and supplemental educational opportunity grants to attend college, and obtained
employment at a time when she was not a legal permanent U.S. resident. It
is alleged that RUIZ also obtained several credit cards and personal loans
using the stolen identity.
The indictment further alleges that HERIBERTO RUIZ aided and
abetted ITZA RUIZ in committing these offenses, including personally applying
for, and co-signing, the mortgage loan for their Saugus home.
Additionally, the indictment alleges that when ITZA RUIZ applied
for U.S. citizenship, ITZA RUIZ and HERIBERTO RUIZ, her sponsor, provided
false information upon which the Immigration and Naturalization Service relied
in issuing ITZA RUIZ a green card.
Following their arrests yesterday, the defendants appeared
in federal court before U.S. Magistrate Judge Robert B. Collings and were
each released on a $25,000 unsecured bond. ITZA RUIZ and HERIBERTO RUIZ face
up to 30 years' imprisonment and a fine of $1 million if convicted of the
bank fraud charges, 15 years' imprisonment and a $250,000 fine on each count
of credit card fraud and identity theft, and 10 years' imprisonment and a
$250,000 fine on each count of making false statements in documents required
by federal immigration law. ITZA RUIZ also faces up to 5 years' imprisonment
and a $20,000 fine on each count of student financial aid fraud, 30 years'
imprisonment and a $1 million fine on each count of making false statements
on a loan application, and 5 years' imprisonment and a $250,000 fine on each
count of making false statements and entries on an INS Employment Eligibility
Verification Form I-9 and misrepresentation of a social security account number.
Following their release from prison, the defendants face up to 3 to 5 years
of supervised release.
The case was investigated by the Massachusetts Identity Theft/Financial
Crimes Task Force led by the U.S. Postal Inspection Service with the assistance
of the U.S. Department of Education's Office of Inspector General, Immigration
and Customs Enforcement, the U.S. Social Security Administration, the Saugus,
Boston and Medford Police Departments. It is being prosecuted by Assistant
U.S. Attorney Antoinette E.M. Leoney in Sullivan's Major Crimes Unit.
Press Contact: Samantha Martin, (617) 748-3139
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov